CERTIFICATE OF SERVICE
I, Derrick Wilson, do hereby certify that a true and correct copy of the
Petition for Writ of Certiorari, in the above-entitled case, was sent by U.S. Mail, postage
prepaid on this 11th day of July 2021.
Elizabeth Prelogar,
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.

Executed on July 11th, 2021.
With Fortitude,
/s/Derrick Wilson. Pro Se

22

